E.D.N.Y.-C. Islip
18-cv-3800
Bianco, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 30th day of March, two thousand twenty.
Present:
Dennis Jacobs,
Rosemary S. Pooler,
Susan L. Carney,
Circuit Judges.
Steven McManus,
Petitioner-Appellant,
19-2884

v.
Superintendent Mary Vann,
Respondent-Appellee.

Appellant, pro se, moves for a certificate of appealability. Upon due consideration, it is hereby
ORDERED that the motion is DENIED and the appeal is DISMISSED because Appellant has not
“made a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c): see also
Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

w

ix A1'

:3
Case 2:18-cv-03800-JFB Document 14 Filed 08/23/19 Page 1 of 1 PagelD #: 2673

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK

X

STEVEN McMANUS,
Petitioner,

JUDGMENT
CV 18-3800 (JFB)

- against SUPERINTENDENT MARY VANN,
Respondent.
X

A Memorandum and Order of Honorable Joseph F. Bianco, United States Circuit Judge
(siting by designation), having been filed on August 9, 2019; finding that the petitioner has
demonstrated no basis for habeas relief under 28 U.S.C. § 2254; denying the petition for a writ of
• ...... habeas corpus in its entirety;-declining to issue a certificate of appealability because .petitioner- .. -.
has failed to make a substantial showing of a denial of a constitutional right; denying in forma
pauperis status for the purpose of any appeal; and directing the Clerk of the Court to enter
judgment accordingly and close this case, it is
ORDERED AND ADJUDGED that petitioner Steven McManus take nothing of
respondent Superintendent Mary Vann; that the petitioner has not demonstrated a basis for
habeas relief under 28 U.S.C. § 2254; that the petition for a writ of habeas corpus is denied in its
entirety; that a certificate of appealability shall not issue; that in forma pauperis status for the
purpose of any appeal is denied; and that this case is closed.

Dated: August 23, 2019
Central Islip, New York

By:

DOUGLAS C. PALMER
Clerk of the Court
/s / James J. Toritto
Deputy Clerk

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
22nd day of June, two thousand twenty.

Steven McManus,
Petitioner - Appellant,
v.
Superintendent Mary Vann,

ORDER
Docket No: 19-2884

Respondent - Appellee.

Appellant, Steven McManus, filed a motion for panel reconsideration, or, in the
alternative, for reconsideration en banc. The panel that determined the appeal has considered the
request for reconsideration, and the active members of the Court have considered the request for
reconsideration en banc.
IT IS HEREBY ORDERED that the motion is denied.

FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

